<html>
<title> - A NEW U.S. GRAND STRATEGY (PART 2 OF 2)</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-168]

                       A NEW U.S. GRAND STRATEGY

                             (PART 2 OF 2)

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 31, 2008

                       [H.A.S.C. 110-159 Part 1]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
                 John Kruse, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Sasha Rogers, Research Assistant




















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Thursday, July 31, 2008, A New U.S. Grand Strategy (Part 2 of 2).     1

Appendix:

Thursday, July 31, 2008..........................................    35
                              ----------                              

                        THURSDAY, JULY 31, 2008
                A NEW U.S. GRAND STRATEGY (PART 2 OF 2)
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     4
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1

                               WITNESSES

Blair, Adm. Dennis C., USN (Ret.), John M. Shalikashvili Chair, 
  National Bureau of Asian Research..............................     2
Hunter, Ambassador Robert E., Senior Advisor, RAND Corporation, 
  U.S. Ambassador to NATO, 1993-1998.............................     4
Scales, Maj. Gen. Robert H., Jr., USA (Ret.), President, COLGEN, 
  LP, Former Commandant, Army War College........................     6
Zelikow, Dr. Philip D., White Burkett Miller Professor of 
  History, University of Virginia, Former Counselor, Department 
  of State.......................................................     8

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    41
    Blair, Adm. Dennis C.........................................    42
    Hunter, Ambassador Robert E..................................    57
    Scales, Maj. Gen. Robert H., Jr..............................    80
    Snyder, Hon. Vic.............................................    39
    Zelikow, Dr. Philip D........................................    93

Documents Submitted for the Record:

    The Coalition of Enlightened States submitted by Maj. Gen. 
      Robert H. Scales...........................................   107

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 
                A NEW U.S. GRAND STRATEGY (PART 2 OF 2)

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                           Washington, DC, Thursday, July 31, 2008.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. We are going to go ahead and get started. Mr. 
Akin is on his way, and Dr. Zelikow, I think, is either finding 
his parking place, or has found it and is being escorted up. 
But he was scheduled to be our fourth testifier. And I suspect 
that he has read your written statements.
    We welcome you all today to the Subcommittee on Oversight 
and Investigations hearing. This is our second hearing in a 
series of hearings we are having on--we call it, I guess, a 
Grand Strategy--whether we need a new Grand Strategy.
    Chairman Skelton has expressed his support for this 
subcommittee's work, and intends to hold a hearing in the fall 
on the full-committee level, with former Secretaries of Defense 
and State.
    At our first subcommittee hearing on July 15th, the 
witnesses agreed that our two--perhaps our two most important 
national-security challenges were actually ones we need to look 
at internally to regain our fiscal health and, as soon as 
possible, to have a sound and comprehensive energy policy.
    While focusing on these two issues, there also was 
agreement amongst our witnesses that there is no clear-cut 
existential threat to our Nation. And while these witnesses 
emphasized the importance of rebuilding the foundation of this 
country's power as the basis for its Grand Strategy, they also 
caution that the world is too uncertain a place for the United 
States to somehow declare a time-out while we work on things 
like energy policy and our fiscal health.
    And also, everyone was in agreement we need to pay better 
attention to engaging our allies.
    I appreciate you all being here today. I have read your 
written statements.
    What we will do is we will turn on our little light here. 
And it will start flashing red at five minutes. But that is 
more just to give you a sense of where you are at with time. 
And if you need to go on past that to finish your statement, I 
would encourage you to do that.
    Obviously, some of you have written statements. If we 
actually read the whole thing, we would be here until Tuesday, 
and I don't intend to be here until next Tuesday, so I would 
hope you will give a more condensed version.
    But Mr. Akin is not here. When he comes here, we will give 
him an opportunity to make any comments he wants to make.
    And we will go ahead, Admiral Blair, and begin with you. We 
are pleased today to have, as our witnesses, Admiral Dennis 
Blair, Ambassador Robert Hunter, Major General Robert Scales--
both at--I will say Admiral Blair and Major General Scales are 
retired--and then Dr. Philip Zelikow will be joining us--just 
in time.
    Oh, Doctor--and Dr. Zelikow is here with us. So, great.
    Dr. Zelikow, thank you. Thank you.
    So, Admiral Blair, let's begin with you.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 39.]

    STATEMENT OF ADM. DENNIS C. BLAIR, USN (RET.), JOHN M. 
     SHALIKASHVILI CHAIR, NATIONAL BUREAU OF ASIAN RESEARCH

    Admiral Blair. Thank you, Mr. Chairman.
    I read over the transcript of your last hearing, and I 
agree with the thrust of most of your witnesses that, probably, 
a tight, clever, sophisticated strategy is not something that 
is possible for the United States--a tight possible Grand 
Strategy--for all of the reasons you discussed earlier. But I 
do think that we can have a set of strategic priorities, an 
approach to the way the United States uses its power in the 
world.
    I would say that, because we can't really have a tight, 
clever, integrated strategy, we probably need a little more 
power than what otherwise would be the case. If you look at 
North Korea, for example, and our interaction with them over 
the last 20 years, they have had an amazing strategy and no 
power. We have had an amazing amount of power, very little 
strategy. And the result, over 20 years, has been about a tie.
    So the United States sort of needs some extra power if it 
is going to operate in the somewhat open way that we do. And so 
I very much share the views of those at that last hearing--that 
we need to work on the internal basics so that we have that 
power. And it is not only economic and fiscal power. We need to 
regain some of the moral authority that plays so powerfully for 
us in the world.
    So if we are to have a set of strategic principles, if not 
a strategy, what should we start with? And I believe we should 
start with the objective that we seek. And I think that is 
fairly simple to state: The United States seeks a world in the 
future in which there are nation-states which have secure 
borders.
    These countries can enforce the rule of law within their 
borders. The governments of these countries are representative 
governments--representative of the will of their people. They 
have, basically, market-based economies and they trade with one 
another. I think that is the kind of world we are looking for. 
So that should be at the heart of our strategic principles.
    I think if you look at that end state, that vision, most of 
the rest of the world would share it. You notice that it 
doesn't mean implanting American-style democracy in other 
countries. But if you go a level down, I find that if you 
talked with citizens of other countries in terms of these more 
basic principles--rule of law, representative government, 
secure borders and so on--you find quite general agreement.
    So if we phrase it in a way that translates well in other 
countries, I think our objective, you will find, is shared with 
most of the world that we care about. And that provides a solid 
basis for our strategic principles.
    So Strategy 101--objective--where you are now, how do you 
get there? What are the strategic principles that we should 
follow as we try to work toward that world?
    Number one: I think we should use the unique power that the 
United States has, that we have enjoyed ever since the end of 
the Cold War, to build norms of international behavior, 
institutions, precedents that favor that sort of world that we 
seek, and that I think others seek, if we communicate with them 
correctly.
    This has two components to it. Number one: When there is 
not some crisis going on that absorbs all of our attention, we 
should work on capacity. That is capacity within other 
countries. That is capacity of international institutions.
    This is the sort of--day-to-day work of attending meetings, 
building institutions, educating others in the United States, 
helping non-governmental organizations to build capacity for 
rule-of-law legal systems--democratic, representative 
institutions in other countries. And we should put a strong 
focus on that when--on a day-to-day basis.
    When it comes to handling a crisis, handling a particular 
situation, I think we should give a strong preference to 
collective action. The United States may lead it. The United 
States may not. There may be times when we have to act 
unilaterally. But our strong preference should be for 
collective action toward these common goals, which I think we 
all share.
    This is not just pie-in-the-sky. When I was in the Pacific 
Command and dealing with Indonesia, when we were both dealing 
with the East Timor issue, in which there was an Australian-led 
operation, and in the tsunami relief, in which there was a big, 
multilateral relief organization--the United States worked 
together with other countries.
    The result was that we rebuilt very strong relationships 
with Indonesia, a very important country in that part of the 
world. So I think that these principles can work.
    Principle number two--and I know it is also of interest to 
this committee--is integrating the forms of national power. And 
that means not only across the government, state, defense, 
intelligence community, but also with the private sector, both 
in non-governmental organizations, and with the for-profit, 
commercial sector--international companies and so on.
    I think if we follow those two principles, if we keep our 
eye on that vision of where we want the world to go, we can 
hand on a world to our children and grandchildren in which they 
can be free, secure, and lead fulfilling lives. And that, after 
all, is the objective of our strategy. Thank you.
    [The prepared statement of Admiral Blair can be found in 
the Appendix on page 42.]
    Dr. Snyder. Thank you, Admiral Blair.
    If--Ambassador Hunter, let me give--we have been joined by 
Mr. Akin. Let me give Mr. Akin the time to make any opening 
comments he would like to make.

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. I am just interested in anything that is grand. 
And I have appreciated your comments--looking for more.
    And welcome, General Scales, too, and good to see you 
again.
    General Scales. You, too, sir.
    Mr. Akin. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 41.]
    Dr. Snyder. Ambassador Hunter, I will recognize you.

STATEMENT OF AMBASSADOR ROBERT E. HUNTER, SENIOR ADVISOR, RAND 
        CORPORATION, U.S. AMBASSADOR TO NATO, 1993-1998

    Ambassador Hunter. Thank you very much, Mr. Chairman. 
First, let me compliment you and the subcommittee for doing 
this.
    You know, we have gone, now, twice the time that we fought 
World War II since 9-11. And we still haven't developed a new 
Grand Strategy. And the initiative that you are taking right 
now, I think, points us in the right direction.
    Remarkably, listening to my colleague here, with--I agree 
with every word he said, plus what you summarized from the last 
hearing. We are now building this on a bipartisan basis. And I 
think that is going to be critical for the next Administration, 
and for the next Congress.
    In fact, what you are starting today--I encourage you to 
continue it--to pair also with the Foreign Affairs Committee. 
And I do believe, here in the Congress, while you appropriate 
and authorize in a certain mechanism, it would be very useful 
if you had some committees that would look at the grand 
strategic picture and everything together, to help give 
guidance to the Administration, because, quite frankly, the 
barriers between the Administration and Congress have to fall 
in this area.
    We are all in this together, and that is the only way I 
think it is going to work.
    I--just to summarize very briefly, I think there are a 
number of areas. One is in strategic thinking. You are already 
initiating that.
    Second, as you mentioned, strength at home--a whole series 
of areas: It is not just energy and fiscal soundness, but 
things like health and education, the strength of our people, 
infrastructure and, yes, our reputation, and what the world 
wants to look at the United States--even though, sometimes, it 
sounds like a hackneyed phrase--as a ``City on the Hill''. I 
think we are moving in that way.
    You also have to have, as you well know, popular support of 
the American people. I have long believed that any President 
who has a policy he cannot sell to the Congress and the 
American policy doesn't have a foreign policy. That is an 
absolute requirement.
    In terms of tasks and priorities, I think we know some of 
the near-term ones--terrorism, weapons of mass destruction, the 
places where American fighting men and women are at risk today, 
in Iraq and Pakistan--sorry--in Afghanistan--with a major 
element of Pakistan involved in that--the Middle East, where we 
are going to be preoccupied for the indefinite future.
    But I want to raise the question whether we need to find a 
way to depreciate the amount of time and effort we have to put 
into the Middle East, when there are others who might be able 
to do it with us, and things we may be able to build for the 
future so that we can get on as well with some of the critical 
things that are happening in the world, and particularly in the 
Far East--China and the new, emerging issue of Russia. And, of 
course, we have to do an awful lot with the global economy.
    And then there are three long-term issues--resource 
scarcity, particularly oil, the environment, and global 
warming--that have a real problem in that these, for every 
leadership in every country, are beyond the political horizon 
of action. We are going to find a way--and you are leading on 
this--to collapse that.
    Tools: I agree entirely with what the admiral said. We need 
to be looking for force multipliers, power-and-influence 
multipliers, and security multipliers, particularly, the 
integration of instruments of power and influence.
    We have just finished a project at the RAND Corporation 
with the American Academy of Diplomacy that will be out a 
couple of weeks from now--fully consistent with what Secretary 
of Defense Gates has been trying to do. In fact, there is a new 
report mentioned in the Washington Post this morning.
    It is to deal with this extraordinary phenomenon of 
asymmetrical warfare, which is going to preoccupy us for the 
foreseeable future. We need to have engagement in the outside 
world on a governmentwide basis, not just the military, not 
just the State Department.
    In Afghanistan, today, there are exactly three employees of 
the United States Department of Agriculture. That is nonsense. 
We need to have purple-suited civilians like under Goldwater-
Nichols. We need to have culturally sensitive people. We need a 
national-security budget, even if it is not actionable, put up 
by the Administration and by Government Accountability Office 
(GAO), Congressional Budget Office (CBO) and Congressional 
Research Service (CRS)-Air.
    And we are going to need to shift resources. The ratio 
between the 050 account and the 150 account, right now, is 17.5 
to one. The people who will tell you we need to shift resources 
are the military people who had to do things in Bosnia, Kosovo, 
Iraq, and in Afghanistan.
    Now, allies--the admiral has already mentioned that. We are 
going to need allies elsewhere. And, in fact, we are going to 
have to put the North Atlantic Treaty Organization (NATO) 
allies on greater notice of their responsibility, along with 
us, to do things, like in Afghanistan. They have got to pull 
their weight more, not just militarily, but also non-
militarily.
    We are also going to have to demonstrate to the Europeans 
that we continue to care about their security. And one thing I 
worry about is a further reduction of U.S. troops in Europe. 
That is going to cost us a lot in influence, and not save much 
money. That is one of the things we have to do together.
    I think we have to have a new U.S.-European unit and 
strategic partnership in health, education--a whole series of 
things--and to break down the barriers between the European 
Union (E.U.) and NATO.
    A final word on the Middle East: We have an awful lot we 
have to do, and we have to do it all together--not just 
Afghanistan and Pakistan by itself, and Iraq by itself, Iran 
and the Arab-Israeli--but altogether.
    And three big points: One, as we reduce our position in 
Iraq, we have to do it in a way in which the world will know we 
are still a critical Middle East power, and our reputation for 
power and influence is intact.
    Second, we need to work out a relationship with Iran. And I 
believe the first thing we should do is finally offer them a 
deal: ``You behave; we will give you security guarantees.'' We 
ought to do that with North Korea. Maybe they will say, ``No.'' 
At least we will have tried.
    Because we are going to be there and they are going to be 
there--we are going to be the big power no matter what happens. 
They are going to be a minor power.
    Final thing in addition to Arab-Israeli: We need to create 
a new security framework for the Middle East that will, in 
time, enable us to take a bit of a step back a bit more over 
the horizon, while everybody knows the United States, as 
elsewhere, will continue to be the security provider of last 
resort.
    Thank you.
    [The prepared statement of Mr. Hunter can be found in the 
Appendix on page 57.]
    Dr. Snyder. Thank you, Mr. Hunter.
    General Scales.

   STATEMENT OF MAJ. GEN. ROBERT H. SCALES, JR., USA (RET.), 
   PRESIDENT, COLGEN, LP, FORMER COMMANDANT, ARMY WAR COLLEGE

    General Scales. Thank you, Mr. Chairman. I am a military 
historian, and so my view of a future Grand Strategy will 
really reflect more of my academic than my military background.
    I would like to just, in the five minutes I have, make a 
couple of quick points. And then, what I would like to do at 
the end is offer some suggestions from a military perspective 
of what the military services need to do, over the next 
generation or so, to ensure that we meet the needs of of this 
strategy.
    I think that one of the conclusions that have come out of 
the last seven years is that we, as a Nation, can no longer go 
it alone, and carry the burden of global security on our 
shoulders. We can't do it.
    In Iraq, I think that we are beginning to see, with the 
number of soldiers and Marines available to carry that burden 
is diminishing in proportion to the size of the mission.
    It seems to me that we, in the future--in the distant 
future--as a goal, we need to return to a more traditional 
supporting role in our partnership to defeat global threats.
    And I think I view this as a generational effort. It is not 
anything you are going to solve by--in the next years' budget. 
But what I suggest in my statement for the record is, over 
time, we need to re-look at our coalition and alliance-
building, and build what I call a ``coalition of enlightened 
states,'' the ability to pursue a global strategy led by 
regional governments, rather than led by the United States.
    We still need, I believe, to protect ourselves against 
radicalism by protecting the traditional state system. But we 
need to move away from this cycle of seemingly perpetual 
violence. And I believe, frankly, that if we treat this as a 
generational effort--that time is on our side, because all 
radical movements contain the seeds of their own destruction.
    As they become more radical and they feed on more and more 
violence, then the revulsion among enlightened states begins to 
increase. You reach a tipping point. And these things tend to 
burn out over time.
    Clearly, we need a capability for direct confrontation. 
This is enemies that happen to arm themselves with nuclear 
weapons. But I strongly believe that containment and prevention 
are better than direct confrontation.
    Still, in this new era of a coalition of enlightened 
states, many of the basic Cold War instruments are still 
useful: Collective defense, regional alliances, economic 
develops and so forth.
    So we have to move away from short-term, preemptive action, 
to a more patient, nuanced, and longer-term policy of 
reinforcing our allies.
    An alliance of enlightened states built over time should be 
more expansive and more global than the Cold War alliances, 
like NATO. One of the things that is important is to cast a 
much broader net and build alliances around people who--around 
nations that have common interests, nations that are fearful of 
radicalism. We need to have a focus to reinforce statism, 
rather than policies that take apart statism.
    And there are really three purposes. One, obviously, is 
education and economic development. Probably the most 
important, Mr. Chairman, is a strategy focused around defeating 
insurgencies early, pre-insurgencies. A policy--a strategy--
that focuses on pre-insurgency, rather than counter-insurgency 
pays far more dividends in the long term. And, of course, we 
still have to remain powerful to defeat conventional threats.
    A couple of quick words about how tomorrow's military needs 
to reshape itself in order to--and to support this coalition of 
enlightened states--I believe it has to be built around 
embassies and this country-team alliance, rather than simply 
reinforcing combatant commands with military power.
    Centered around that, of course, it is principally or, 
overwhelmingly, an Army and Marine Corps mission to focus on 
the advise, train and assist functions. It is also interesting 
to note that we do this better than any other country in the 
world. We have a long tradition of success in places like 
Greece, Korea, Vietnam, El Salvador, and now Iraq and 
Afghanistan.
    I draw your attention to the Lodge Act, 1950, which was an 
act that brought in aliens from Eastern Europe. And there was a 
point in the 1950's and early 1960's, where the entire 10th 
Special Forces group was made up of emigres who were brought in 
from Eastern Europe and put into uniform, served five years 
honorably. And if they served five years, they and their 
families were automatically fast-tracked to full citizenship.
    What a huge difference that made in winning the Cold War, 
and not many people know about it.
    We need to look at something like a universal--foreign-area 
officers--do not have a specialty, but build foreign-area 
specialties into the entire officer corps, because this can't 
be a small part of the military if we are going to build these 
alliances.
    And the final point I will leave with you is: The challenge 
of building a coalition of enlightened states is that it is a 
human, rather than a technological or material-type. It is a 
policy built around the human element, rather than the 
technological element, of war.
    You know, war is a thinking-man's game. And if we are going 
to build a new generation of officers--and I would argue, 
senior non-commissioned officers (NCOs) who are particularly 
good at training, assisting, and advising this new alliance--
then we have to start educating them from the very beginning of 
their commissioning, all the way through senior service.
    We will know we are successful some time many years in the 
future, when a Chairman of the Joint Chiefs of Staff served a 
great deal of his career as a foreign-areas officer, as well as 
an operator.
    Thank you.
    [The prepared statement of General Scales can be found in 
the Appendix on page 80.]
    Dr. Snyder. Thank you, General Scales.
    Dr. Zelikow.

   STATEMENT OF DR. PHILIP D. ZELIKOW, WHITE BURKETT MILLER 
PROFESSOR OF HISTORY, UNIVERSITY OF VIRGINIA, FORMER COUNSELOR, 
                      DEPARTMENT OF STATE

    Dr. Zelikow. Mr. Chairman, I am a historian, but I have 
also been a trial and appellate lawyer. And I have served in 
government in seven different Federal agencies, one state 
agency, and as an elected member of a town school board. So my 
experience with these kinds of issues of strategy is eclectic, 
both in domestic and foreign policy.
    We Americans are really at an extraordinary moment in world 
history, where we have an opportunity to reflect on what our 
purposes are in the world. I am glad the committee is holding 
this set of hearings.
    Our country, because of its separated and overlapping 
powers, generally has problems with concerted action, except 
when a common sense of purpose draws us together. Such a sense 
of purpose transcends party. It actually sets the framework 
within which the parties argue.
    There have only been a handful of these sort of Big-P 
policies in the history of the United States. One of the 
earliest was ``No entangling alliances.'' The latest was, 
``Containment plus deterrence.''
    We have not had such a large, common sense of purpose since 
the end of the Cold War. Since 1991, the United States has 
brought to a bewildered, confused, globalizing world, a 
bewildering, confusing melange of policy ideas. Politicians and 
officials talk about terror, democracy, proliferation, trade, 
the environment, growth, and dozens of other topics. They 
strike 100 notes, but there is no melody.
    There are already many arguments about how the United 
States should try to manage the post Cold War world. They tend 
to take current issue sets as a given, and focus on how we can 
handle them better, smarter, stronger: ``We should use more 
military''; ``We should have less military, more diplomacy, 
better diplomacy,'' and so on.
    I have worked on a number of these proposals, including on 
the intelligence establishment, and would be glad to discuss 
specific ideas. But I urge the committee to dig more deeply 
into the core problem, which is, I think, a lack of clarity 
about the problem itself, lack of clarity about, ``What is 
special about this moment in world history, and what role does 
that, then, create for the United States in defining a broad 
sense of purpose?''
    My argument is that the greatest challenge today--and it is 
one that is not just evident to wonks, it is evident to 
ordinary people in the United States and all over the world--is 
the tension between globalization and self-determination; 
globalization versus self-determination.
    Globalization is a familiar concept, and I don't need to 
elaborate it to the committee. Self-determination is familiar, 
too. What may be less familiar, though, is a point that a 
number of world historians have made, is that, actually, 
globalization and self-determination are two sides of the same 
coin. They are as connected as summer heat and thunderstorms.
    Indeed, the term ``self-determination'' doesn't exist 
before about the middle of the 19th century, when you see a lot 
of phenomena in which people, basically, are buffeted by global 
forces, ideas, culture, new ways of doing business, that are 
affecting the way they are used to organizing their societies.
    And then they react to that with defiant assertions of 
self-determination, often with extreme violence, which 
convulsed much of the world during the middle of the 19th 
century, and then led to repeated convulsions in the 20th 
century.
    In this era of unprecedented levels of globalization, we 
are going through this phase again. Actually, I think it is 
most reminiscent of the period about 100 years ago. It even 
includes the element of nihilistic transnational terrorists who 
frighten all civilized people. Back then, they were anarchists 
and they would throw bombs in opera houses, instead of subway 
stations.
    Globalization versus self-determination is the combustion 
engine that is now driving debates not only in our country, but 
in China, Pakistan, Iran, India, Brazil. The issue is: Will 
countries trust that interdependence will work; that the global 
forces can be mastered to their benefit? Or will they start 
fortifying themselves in 100 ways, listening avidly to the 
ideologues who will tell them why they have no other choice?
    In other words, Mr. Chairman, we have now unleashed global 
forces in a variety of ways--energy, ideas, commerce--that are 
without precedent in the history of mankind. The forces are 
unprecedented. But men and women are still being made in about 
the same size they have been made in for a long time.
    And the fundamental issue that people are having is: ``Can 
our communities grapple with these forces? Can we manage this 
in some constructive way?'' Or, because we can't manage them, 
we need to fort-up in fear, with a variety of ways in which we 
defiantly assert how our communities will protect themselves 
against all these different things--incoming people, incoming 
ideas, incoming capital--in a variety of forms.
    The agenda that, then, flows from that, which I elaborate 
further in my prepared statement, is an agenda that calls for 
an open, civilized world. A frank discussion of the principles 
that animate an open, civilized world--and I offer a suggestive 
outline--and an agenda in which you are basically saying to 
people, ``We can develop global frameworks for about five or 
six of these forces that look like they are credibly capable of 
starting to manage them,'' and reassure you.
    And these frameworks need to be loose enough to allow 
communities to still feel, ``We can determine our own 
identities our own way.'' But these enormous forces--the 
diffusion of ultra-hazardous technologies, the consumption of 
energy, arable land, clean water, at unprecedented rates--are 
more or less being managed so that we have a safe framework in 
which our communities can define our identities the way we 
want, and the healthy way.
    Or else, what we will see is self-determination will take 
on the kind of toxic forms that, then, characterize most of the 
20th century. That is the kind of danger that I think we need 
to avert. And that is the focus of the Grand Strategy I propose 
to the committee.
    [The prepared statement of Dr. Zelikow can be found in the 
Appendix on page 93.]
    Dr. Snyder. Thank you all for your written and your oral 
statement. Your written statements will be made a part of the 
record.
    I also want to let our committee members know, this is our 
second hearing. Our first hearing, we had folks who, through 
most of their career, had been affiliated with the kind of the 
think-tank aspects of things. Our panel today are four folks 
who, either, through their career in the military or in 
government service, have been practitioners of the art of 
looking at strategies and the implementation of strategies.
    I also want to acknowledge that we have some guests here 
today--some legislators both from Kenya and from Macedonia--
that I have met with here, briefly, this morning.
    We welcome you. I understand you will have to be leaving 
some time during our hearing. We appreciate your attendance 
today.
    You can go ahead and start the clock here.
    I wanted to just ask some specific questions from several 
of you.
    Admiral Blair, you make one very specific--that--of course, 
we are talking about a strategy. I am going to ask some very 
specific questions about comments you make.
    You mentioned language skills as being important.
    General Scales, you mentioned it, too.
    And, in fact, I think General Scales is going to quote a 
couple of your comments. You, specifically, in your written 
statement say, talking about military officers--``No officer 
should be allowed beyond the grade of lieutenant colonel 
without demonstrating a working knowledge of the language 
spoken in a region potentially threatening to the interests of 
the United States.''
    And, then, on page 12, you say, ``Cultural awareness and 
the ability to build ties of trust will offer protection to our 
troops more effectively than body armor.'' And that is your 
statement, General Scales.
    That is one of those issues that this subcommittee is 
working on. The obvious statement is that the military and the 
diplomatic corps inherits the language-skill deficit that we, 
as a Nation, have. And, in fact, then, we expect the military 
and the diplomatic corps to solve this problem for us; to 
somehow fill in your ranks, even though we don't have very deep 
language skills within our country. At least, we are not 
accessing those, perhaps, that we do.
    Do either of you, or any of the four of you, have any 
further comments to amplify on this issue of language skills 
and cultural appreciation?
    Let's start with you, Admiral Blair.
    Admiral Blair. Mr. Chairman, I think there are two aspects 
to it. I would--more than language skills, I would say regional 
studies or cultural studies.
    I find that if an officer, particularly a senior officer, 
has studied one different country culture in-depth, he knows 
that--he or she--knows that one pretty well. But more 
important, he knows that you need that sort of awareness.
    So if I found, when I was dealing with a country that I 
didn't, perhaps, know a great deal about, I knew enough to get 
somebody who did. And then--so whenever there was a difficult 
issue with one of the 41 countries in my area of 
responsibility, I would get the right people to do it.
    And you could find them in many sources. Some of them had 
uniforms on. Some of them didn't. They were out there.
    So I would agree that we need this for--I think diplomats 
get it naturally. Intelligence officers should have it. They 
shouldn't just be technical experts. Military officers--I agree 
with General Scales--should--it should be a required part of 
their education. And--so that they know who the right people 
are to pull on when it is time to deal with another country, 
another culture, in a sophisticated way.
    General Scales. Mr. Chairman, I guess the phrase I have 
used in some of the stuff I have written before--I call it sort 
of ``the cultural right stuff.''
    You know, it is hard to put a finger on it. It is--it could 
be language. But there are other things. And I agree with 
Admiral Blair on this. There are certain personal attributes 
that make people really good at this--sublimation of ego is one 
thing; the ability to be collegial and convivial when dealing 
with alien cultures.
    I think the poster child that we all refer to in this 
business is Karl Eikenberry. I mean, here is a guy that speaks 
fluent Mandarin. He is married to a--his wife is Chinese. He 
was the defense attache in Beijing. And where was he sent to be 
most effective? Afghanistan. And my point is that he was 
effective there--he was so effective there, not because he--
there were a lot of Afghans who spoke Mandarin, but because he 
just had this certain nature about him that allowed people to 
trust him.
    And I am not saying we should have a military occupational 
specialty called ``trust,'' but we ought to at least be able to 
go through the officer--and I would argue, senior NCO corps--
and find those who have this--these unique abilities, this 
cultural awareness, this right stuff, if you will, to--and then 
build on it over time.
    I believe that there are actually ways now--talking to some 
of my social-science friends--when you can actually give folks 
instruments that will allow you to determine whether or not 
they have this--think of it as sort of a cultural Myers-
Briggs--that will allow you to determine whether or not people 
are built for this sort of thing.
    And I think that is--as we look to the future, if we are 
going to build these new coalitions from scratch, many of them, 
we have to find the right people to do the job.
    Dr. Snyder. Dr. Zelikow.
    Dr. Zelikow. If I could, Mr. Chairman--I have a little 
personal experience with this. You see, the Air Force tried to 
teach my son Arabic as a crypto-linguist. And he is now, 
actually, majoring in Japanese, and will be taking off for 
Japan in a couple of months. My daughter is spending her whole 
summer reinforcing her classics training by studying Latin, 
which, I am afraid, is not of very much use to the national-
security establishment.
    What comes out of my experience, though, just with my own 
family, is just two suggestions--two prescriptive suggestions. 
First is, because the overarching common is you actually have a 
lot of Americans who understand that we are in a globalized 
world. And I think you will see general trends of interest in 
foreign-language education, broadly speaking, on the upswing.
    But I think the two suggestions are--you will need to 
incentivize people studying the languages you want. I think 
the--you don't need to incentivize people to take an interest 
in the world. I think, by a lot of measurements--junior year 
abroad, things like that--those are on the upswing. But you 
will need to incentivize studies, say of Dari or Pashto--things 
like that.
    The second is you will then--in the best case, you will 
have a larger quotient of people in the general population who 
have language skills you may need in a crisis, but you won't 
know which languages you will need. That triple-underscores the 
value of investment in a civilian-reserve-corps idea, so that 
you, essentially, create basic training for cadres whom you 
need to call upon when you wish to surge certain skills; in 
this case, language skills.
    It is a precedent the military understands very well, for a 
variety of kinds of skill sets, including language skills. And 
I think we just need to carry that over into the civilian 
sector in a way that allows us to tap what I think will be a 
larger and larger residual quotient of people whom, properly 
incentivized, can meet our needs.
    Dr. Snyder. Thank you.
    One comment, and then we will go to Mr. Akin--consistent 
with you, General Scales. We had someone testify here a couple 
of weeks ago that, just because you might find somebody--an 
American, and, perhaps, a naturalized American--perhaps, 
somebody raised in, say, a Farsi-speaking home--don't assume, 
then, that that means they automatically have the cultural 
sensitivity----
    General Scales. Exactly.
    Dr. Snyder [continuing]. The kind of--just because they 
have it.
    General Scales. Exactly. That is right.
    Dr. Snyder. Let me go to Mr. Akin, Ambassador Hunter, if 
you don't mind, since I have already overstepped my time.
    Mr. Akin.
    And then we will--I will give you time, Mister--Ambassador 
Hunter, when--on the next go-round.
    Mr. Akin. Well, first of all, to our panel of witnesses. I 
think you guys have about hit the ball out of the park. Maybe 
that is just because I agree with all four of you--and I didn't 
as much in the previous panel of witnesses. But it seems to 
that you have raised some of the questions, and defined things 
very clearly in terms of--and it is a common sense kind of 
thing.
    I mean, I think if you took your testimony combined and ran 
it past Americans, you would get an 80-plus percent buyoff by 
most people--just common sense.
    I have got one sort of a technical, how-do-you-handle-this 
question. And then I have got one sort of halfway-answer 
question.
    The first is: When you have got, potentially, very unstable 
nation-states that have a supply of oil or something else 
valuable, where they can develop weapons that are extremely 
dangerous and toxic to civilization in general, what do you 
think of this expanded Monroe Doctrine? And do we have to work 
on a preemptive basis?
    Certainly, all of the things you have said are good to be 
doing--the containment and the kind of sowing the seeds that 
are going to produce stable civilizations. But how do you 
respond to that idea of the preemptive strike in situations 
like North Korea or--but just in general. First, that is 
theoretic. So let's do that question first.
    Anybody who wants to take a shot at it? It doesn't surprise 
me you all have your hands up.
    Ambassador Hunter. Your call.
    Let me just say one word about it. Any nation--let's talk 
about our Nation--if it is about to be attacked or has an 
imminent sense of attack, is going to do what it has to do to 
preempt. The problem is talking about it in advance. It is the 
kind of thing you keep your mouth shut about.
    I have--when the President, to be blunt about it, gave his 
speech at West Point a few years ago, I have said, ``I wish he 
hadn't given that speech,'' because we know we are going to 
have to do it. But, unfortunately, it displeases your friends 
and it doesn't confound your enemies.
    So keeping the capacity to do things--trying alternatives, 
building allies and that sort of thing--can put the bad guys on 
notice that we will be there to do what we have to do. And 
there are a lot of examples--in Korea, and, then, Saddam 
Hussein in 1990--of people miscalculating what the United 
States will do. Final analysis will do it.
    Dr. Zelikow. I have a kind of a different view. Actually, 
in those cases of miscalculation, they miscalculated, thinking 
we wouldn't do anything, precisely because we weren't clear 
enough about what we would do, or, actually, we had decided to 
do something different.
    In the case of South Korea, we had actually decided we 
would not defend South Korea. The Joint Chiefs of Staff had 
made a considered decision to that effect, and then decided to 
pull our troops out of South Korea. And the enemy read that.
    If--frankly, I don't think there is as huge a difference 
between Democrats and Republicans on this issue of prevention, 
as you might sometimes hear. If you read Barack Obama's essay 
on foreign affairs last year, he talks about the issue of 
preemption in terms almost identical to the Bush 
Administration. And he is clearly saying it publicly because he 
wants to reverse the burden of proof a little bit and put 
people on notice, because it does complicate their planning.
    What they would say is the big difference from the Bush 
Administration is--they use the term ``imminent.''
    Mr. Akin. Right.
    Dr. Zelikow. And they stress that term.
    But I urge you to think about that for a little bit. Here 
is an easy question: In August 2001--August 2001, before the 9-
11 attack--was the threat from al Qaeda sanctuaries in 
Afghanistan imminent to the United States? My answer to that 
question is: Yes, even though we had no tactical warning about 
the particular attack they were about to launch at that stage.
    We had been on notice that they were getting ready to 
attack us, because they had already attacked us twice. And at 
that point, in my view, that is an imminent threat.
    Now, if someone else would say, ``No, that is not an 
imminent threat,'' then you are in the mode of waiting to be 
hit hard enough to react. But my standard of imminence is: Once 
you see the threat is amassed, and it is clearly poised and 
aimed at you, I believe that that would satisfy this very 
subjective criterion of imminence. Because, that word aside, I 
think we are dealing with a doctrine, now, in which, actually, 
the parties have converged more than one might think.
    Mr. Akin. Thank you. I don't know that I am going to have 
time, doctor, to go to this sort of question-answer, but it 
seemed to me that when we talk about a Grand Strategy, to a 
degree, it assumes that we have some overarching definition of 
who we are as a Nation and what we believe. And it seems to me 
that that was defined when we got in our first war as a Nation, 
in a sense, and our Declaration of Independence.
    And it was stated, maybe too eloquently, ``We hold these 
truths to be self-evident,'' et cetera. But the formula is 
pretty straightforward. Well, first of all, we believe that 
there is a God. Second of all, that God gives every human being 
certain basic, fundamental rights. And, third, the job of the 
government is to protect those rights.
    I was amused a year ago, when the King of Jordan, who is 
Muslim, came here and said to the members' prayer breakfast, 
``This is what we got in common: I believe there is a God that 
gives basic rights to people, and the government should protect 
those rights.'' That was followed a week later by Senator 
Lieberman giving a 15-minute eloquent talk at the National 
Prayer Breakfast, saying, ``I believe that there is a God, and 
that he gives basic rights to people. And government should 
protect those rights.''
    I am not sure that that is a hard thing to sell--as much as 
Europeans hate the word ``God,'' perhaps--but I am not sure 
that is not a bad formula that our founders came up with to 
package a Grand Strategy. It seems like everything you have 
said fits under that umbrella pretty easily.
    Admiral Blair. Mr. Chairman, I think you have to be a 
little bit careful about the terms in which you translate those 
basic contexts. There are over one billion Chinese. And I doubt 
if many of them would agree that God is the source of the 
government's responsibilities to its people.
    I think that, if you scratched most Chinese down below any 
sort of ideological surface, you would find that the goals are 
the same. But I think that we would rather talk in--I think we 
are more effective if we talk in terms of the goal that we 
seek, rather than the source of the power or the--it gets you 
into tangles, which get you away from working on practical 
things together that are in your common interest.
    Dr. Snyder. Mrs. Davis, for five minutes.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    Thank you to all of you for being here. We certainly 
appreciate it.
    You know, on our last panel, I think there was actually 
refocusing in some ways, suggesting that ``restraint and 
renewal,'' I think, was one of the ways it was phrased--that we 
have so many domestic issues today, that, perhaps, we need to 
refocus a little bit on that.
    I am not necessarily sure that is where the American people 
are right now. I think they want us to not necessarily 
retrench. I think they want us to be smarter in what we do and, 
certainly, more strategic, which is what this is all about.
    What I am looking for is: How do you believe that we mesh 
what is a concern of people--certainly, the economy, homeland 
security, is a great reminder. Every time people go to the 
airport, they are reminded they have to take off their shoes. 
There is a threat out there. They need to, you know, think 
about their own security all the time.
    What is it that--how do you see--I mean, you have tried 
to--I know you have spoken about this in your papers, to a 
certain extent. I guess I am looking for, maybe, a simple way 
of talking about that. But it seems that we--you know, we need 
to work on how we engage people in the military, as well as in 
the civilian sector, to look at these issues in a more of a 
multi-prong way.
    And, yet, on the other hand, we are not very patient 
people. And what we need to do in many of the countries--and I 
am thinking of Afghanistan right now--is to be slower, to be 
more measured. And, yet, we have a threat out there, and we 
want to jump on the threat.
    Can you help me out with this a little bit in terms of how 
this discussion can engage the American people better, in a way 
that----
    General Scales. Yes.
    Mrs. Davis of California [continuing]. That they they can 
feel comfortable about it?
    General Scales. I will try that?
    Yes, ma'am. A couple of quick points. Great powers, at 
least in the Industrial Age, tended to get themselves into 
trouble, and to march more quickly off to war, when this sort 
of societal frenzy kicked in. And we haven't always done well 
at this--Spanish-American War comes to mind. It just seems to 
me that a couple of things are involved.
    Number one is: A measured pace, a strategic formulation is 
very important. One of the interesting things about militaries 
at the end of wars: Militaries at the end of--at--as wars wind 
down, whether they are winners or losers, tend to develop a 
more sanguine national strategy when they sit back, step back, 
and think about the future as the conflict wears down, before 
everybody gets too busy trying to charge off the prepare for 
the next set of threats, most of which are invented.
    And it just seems to me that as we move into this--I don't 
know if ``twilight'' is the right word--but as we move into 
stepping down our commitment to Iraq, where just the frenzy of 
the moment is going to begin to dissipate and fade, and before 
we march off to the next great scare--the next two years, in 
particular, I think, are important to take a measured 
circumspect--within the military--to take a measured and 
circumspect look about what we are going to do next.
    Professional education systems are the way to do that. The 
war colleges and staff colleges are a place to do that. I 
think--officers don't like to spend time reflecting. They are 
action-oriented, can-do, go-to guys. And they want to go to 
their next assignment, where they can operate very large 
machines.
    But I think there comes a time, particularly as wars begin 
to wear down, when the military establishment and, I would 
argue, the--you know, the diplomatic establishment--need to 
step back and be reflective about what they are going to do, 
before someone marches off to a brand-new military strategy for 
the future.
    Dr. Zelikow. Congresswoman, if I might, I want to start 
where you began your question, which is: ``If you are concerned 
about domestic issues, you are going to be worried about 
retrenchment.'' And you want to urge people to be more 
interested in the need to project our presence overseas.
    The point I would make if I was talking to a rotary club in 
your district is that domestic issues are foreign-policy 
issues. They are the issues of the world economy and global-
capital movements are affecting people in your district in a 
big way. The issues of energy and the environment are hugely 
important in your district as domestic issues, but the 
solutions to those issues lie in international policies. There 
is no way the United States solves those issues unilaterally.
    And the traditional way we have thought about these kinds 
of problems, where we kind of separate the economic issues to 
the side. You have to have a Grand Strategy that integrates 
management of the global economy and management of these energy 
and environmental issues at the center. But, then, you are not 
going to, I think, have any trouble going to your constituents 
and saying that issues like that matter to them, because I 
think they totally get it.
    George Marshall, when he was selling the Marshall Plan, 
fanned people out all over America to talk to women's clubs, 
because Marshall and his colleagues thought the women were 
actually going to determine the stands of families on these 
issues. Marshall himself went to speak to Cub Scouts in 
Maryland about the need for reconstruction in Europe. That is 
the kind of way that they bridged the domestic-foreign divide.
    Ambassador Hunter. I think there----
    Mrs. Davis of California. Ambassador Hunter, can----
    Ambassador Hunter. A couple of other points, though, as I 
indicated earlier--if we are going to be strong abroad, we have 
to be strong at home. You can't just say, ``We are now going to 
go do something over there,'' without paying attention to our 
health system, so we have Americans who are able to do things. 
Education--we have already talked about the role of languages, 
which is only one part of it; infrastructure; a whole series of 
things.
    And it is for two things: So the American people will say, 
``We have the capacity to do what we have to do,'' but also, 
``We are attending to things here at home.'' That is why 
homeland security is so important, why having control of our 
borders is so important, why trade is so important.
    It is also important, I think, for the leaders to be 
totally honest with the American people; not to take some 
foreign event and try to mislead, because we are a smart 
people.
    I worked in the White House under President Lyndon Johnson. 
And I know how we got in trouble on that. So it is not a 
partisan issue.
    In addition, I have discovered--and you folks will be much 
better than any of us here, because you deal with the public 
business every day--the American people are prepared to risk 
blood and treasure if we fulfill three obligations in regard 
to, let's say, Afghanistan and somewhere else: That it is in 
the American interest to do it; It comports with American 
values to do it; and there is some sense that there will be 
success.
    If you did the three of those, I think the American people 
will be willing to be engaged as long as is necessary. You get 
one of those three wrong, like we did in Somalia, where it was 
about values, but not interest, people are going to say, ``What 
are we doing there?''
    Dr. Snyder. Mr. Conaway, for five minutes.
    Mr. Conaway. Thank you, Mr. Chairman.
    Setting aside my own discomfort with the phrase ``Grand 
Strategy,'' which I mentioned previously--that it is a bit 
imperialistic--and also acknowledging that I am far better off 
listening than talking--I think better--listening to you, 
rather than you listen to me. I will pose some broad questions, 
in a second.
    But it seems inherent in everything that each of you have 
said, is that there is some grand, controlling entity or 
element, or one conductor.
    You mentioned ``100 notes.'' Without a conductor, that you 
just get an orchestra warming up.
    You know, where is the leverage? Where is the ability to 
force, collectively, that all the things that you want to talk 
about? I mean, we are clearly, given this, the option of 
getting a coalition of the willing to go do something. If they 
don't go do it, then we just simply sit back and say, ``Well, 
then, never mind,'' since we--and that doesn't make any sense 
either.
    You know, Mister, I mean, General Scales, you mentioned 
``pre-insurgency attacks.'' How do you pull that trigger, and 
where has that ever worked?
    And then, you know, Dr. Zelikow, your five strategies that 
a globalized self-determining world could co-exist with--and, 
you know, who sets those boundaries and enforces those 
boundaries and all those rules?
    I mean, I mentioned it is a 19th and 20th century 
phenomenon. I think Genghis Khan and Alexander the Great might 
have had a difference of globalization and self-determination--
tension there as well.
    So--and then, explain this incredible phenomenon in Dubai 
and Bahrain and Qatar, where there is just--and Kuwait--
staggering economic development, without the ability to defend 
that economic development, and how that is not done with the 
implicit confidence that the United States is not going to let 
anything stupid happen in that part of the world.
    So how do you manage all of that? I am a certified public 
accountant (CPA), and I am typically a little more, let's, you 
know, think, a chance, as opposed to kind of a fuzzy Grand 
Strategy stuff. So I don't know if I have asked a question or 
plodded the water, but I will shut up, because, again, I am 
clear that I am better off listening to you four than you 
listening to me.
    Admiral Blair. No, Mr. Conaway, I think you are absolutely 
right in characterizing the way that we actually do things 
overseas as being an incredibly complicated process, with a lot 
of different actors, that doesn't go to one conductor.
    And that is why I think the way that we--the only way we 
succeed in that sense is if we have a general idea in the back 
of the minds of those people who act independently, of where it 
is we are going, so that, as they act in their own interests, 
with their own responsibilities and their own incentives, they 
are sort of moving down the field in roughly the same 
direction, rather than canceling each other out.
    So that is what I try to suggest--that if we get that idea 
that where we are headed is a world in which we are making 
progress on those security, economic development, and the idea 
of representative governments and protection of minority 
rights, rule of law--the kind of world we would like to live 
in--then I think that, in each of those little sectors in which 
you operate as you are doing your small plan, you can sort of 
check yourself and say, ``Is this in the right general 
direction? Who can help me on it? How do I link it together?''
    I found that when I was out as a Pacific commander, I could 
get allies who were American businessmen operating in Asia. 
They were ambassadors at embassies. They were heads of 
international organizations. They were non-governmental 
organizations. But you could pretty quickly find out who your 
allies were to move toward the direction that you wanted to go. 
And you could cut actual deals with them of doing real things. 
Some of them were big, some of them were little.
    So I think it is that general, those general, force of 
magnetism, based on your common vision, that will align the 
particles to go the right direction, in the sort of messy world 
that we have.
    Ambassador Hunter. I don't want to give you the mis-
impression that we are arguing that there can be one conductor 
and one overall plan.
    The Cold War, in which there were two superpowers, and was 
relative clarity, that was an historic collaboration. The world 
is usually a messy place.
    Now, historically, the United States has done 
extraordinarily well because we have been prudent stewards of 
power, and we have stood for things that have, I won't say 
``universal'' application, but--and which an awful lot of 
people aspire to.
    We have never gone out to try to grab territory for our own 
self-aggrandizement. People in Europe and Asia, after the end 
of the Second World War, we came, but then we went home. We 
didn't try, like Germany and the Soviet Union and the--to try 
to grab this for ourselves.
    Some people were surprised that happened. But it set a 
standard out there that people expect us to do the right thing. 
And that gives us a tremendous capacity for leadership and for 
influence.
    Now, in terms of whether others are going to be with us, I 
have a very simple rule of thumb. We should try to do things 
together with others when we can, but do things on our own when 
we must. I think that gives us a pretty good rule of thumb. We 
will very often--got other--be with us. But if it is our 
national self-interest, particularly to protect the country, 
well, we will do what we have to do.
    If people understand that, then they are more likely to 
follow us in things that are going to help us and help them, 
because we are building to a better definition of what humanity 
is going to be like in the future.
    General Scales. If I could just add to that. I was in 
China, not too long ago, talking to my counterpart at the war 
college. And we got into a discussion one night. And I said, 
``Well, what is it about? What is it that is American that you 
read?''
    And he laughed and he said, ``Well, we read everything you 
write. We listen to what you say. But most importantly, we 
watch what you do. You know, ``The thing about the Americans 
that we are most sensitive to are your actions, rather than 
your words.''
    And I thought that was significant, because one of the 
turning points in the Cold War, I believe, sir, was when 
Eisenhower, in the military, we have a thing we call a 
``commander's intent.'' And a commander's intent is when the 
commander--in this case, the President--personalizes what is to 
be done. You know, ``What are the tasks that you need to do in 
order to preserve peace in the world?''
    And Eisenhower gave the commander's intent--I think it was 
1954, after he took office, in his famous Solarium Speech. It 
wasn't a Solarium Speech. It was a commander's intent. It was 
the commander of the Nation, telling his principal staff, 
``Here is what is to be done.''
    And it just seems to me that one of the ways you add 
clarity in this confusing world, and the next Administration, 
whoever is in charge, is--what we need is a commander's intent. 
And there are three elements to the commander's intent. And 
since I used to teach it, I won't bore you with it.
    But it is a wonderful way to put clarity into strategy; to 
translate it not only into tasks, but into a personalized 
version of what--from the commander-in-chief--of what those 
tasks need to be. Strip away all the hyperbole and all the 
grand statements, and all the stuff that confuses not only our 
own population, but the people who we deal with in the world.
    And, perhaps, someday in the future we will be able to 
formulate a commander's intent. Call it whatever you want--
Grand Strategy--but some formulation of an intent would be a 
great way to get started.
    Dr. Snyder. Dr. Gingrey, for five minutes.
    Dr. Gingrey. Thank you. Thank you, Mr. Chairman.
    You know, I wonder, if you asked the American people--
average American--what our Grand Strategy is as a Nation, and 
who sets it--very, very few would have any idea what our Grand 
Strategy is. I think they may guess that it is set by the 
President and the Administration.
    And my question, one of my questions is: How much, if, we 
do, indeed, have a Grand Strategy--and I would like to ask all 
four of you if you think we have a Grand Strategy today, and 
what it is.
    Is it important that the American people know what that 
Grand Strategy is; that our high-school students understand 
exactly what our Grand Strategy is? And how often does that 
change? Does it change every four years, when you have a new 
Administration?
    It seems that would be a little impractical. And who, 
indeed, sets it, and what role do we, as Members of Congress, 
have, in regard to stating a Grand Strategy? And if our Grand 
Strategy is in conflict with other countries, such as China and 
Russia and other would-be powers, how do we mesh that?
    Do we change, based on what others are doing or what we 
perceive their grand strategies to be, or do we stay the 
course? I think, maybe, Ambassador Hunter touched on that just 
a minute ago in his remarks--that we should have a strategy 
that we don't bury because of what other people are doing--
other countries are doing.
    So maybe that is enough commentary that you can spend some 
time answering those questions or thoughts.
    Thank you.
    Dr. Zelikow. Congressman, if I could start at this end of 
the table. I do not think we have such a Grand Strategy today.
    If you have a Grand Strategy that is like the handful of 
large policies that have succeeded in the past that survived 
the oscillations of elections and parties, that is precisely 
the point--is to provide concerted action that, then--so that 
the President and the Congress both understand it, and sharing 
overlapping powers, are moving in a common direction.
    We don't have that today. If it shifts every four years, it 
is not a durable Grand Strategy. If it is not with the 
Congress, it is not a Grand Strategy at all, because you won't 
get concerted action.
    The elements, then, though, are--it has to be something 
that people can understand very clearly, because it is about a 
subject they get. And it is about a subject that a lot of 
foreign governments and foreign countries get, too.
    So when I suggested, for example, a rally point of calling 
for an open, civilized world, and then laying out what that 
meant, the agenda that I outlined is an agenda that a lot of 
other people in the world care about and want. So since they 
want that, they want those forces to be mustered, they are 
going to have to, then, look to who is going to provide 
leadership in mustering those forces.
    And whatever the problems the United States has, there is 
no country that is--can step forward right now to supplant that 
role. So they want action, and they know we are central to 
getting that action. And if we can provide a framework in which 
we explain why the dozen things we are doing are actually 
moving toward a kind of world Americans want for their 
children, I think you can rally people across party lines.
    We will, then, still have lots of arguments about how best 
to achieve those goals, and that is natural. But we might be 
able to reestablish a degree of consensus that I think, right 
now, is lacking.
    Ambassador Hunter. You know, not to repeat, but I think we 
should not believe that, suddenly, the world is going to be a 
much better place without an awful lot of effort.
    There will still be conflict. There will still be 
competitions for power. There still will be societies out there 
that do not wish us well. We see it today; we would like to see 
it in the past.
    Our basic requirements as a Nation are to provide the 
security, the prosperity, the independence, and the well-being 
of the country, and of the American people.
    Now, with American leadership and American ideals, and the 
kinds of ways that we express our interests, we are likely to 
find a lot of receptivity in a lot of parts of the world. We 
are not going to find it with everybody. We see a number of 
states today, and non-state actors, who wish us ill both 
because they want power for themselves, and some of them just 
don't like our way of life. So--but the vast majority are going 
to be responsive to the leadership of the United States.
    Now, what you are touching on--I think it has two special 
qualities. One is education. One of the things I most worry 
about in the American state, American Nation, today, is the 
collapse of civic education in our schools.
    You would be surprised--maybe you wouldn't be surprised--at 
how few people understand, younger people, and even some of the 
basic history of this country. We just don't teach it to the 
degree we used to. And I think we have to get on to that in a 
very big way.
    As to who will create, organize, this Grand Strategy: This 
hearing is part of it. As I said before, if the Congress is not 
involved, the people are not involved, you don't have one. You 
don't have a basic sense of where the American people are 
prepared to go, either at home and abroad. And that is why I 
think that for the Congress not to be involved would be a gross 
loss to the Nation.
    Dr. Snyder. Mr. Jones, for five minutes.
    Mr. Jones. Mr. Chairman, thank you very much.
    And like Mr. Conaway said, I probably could listen to you 
and have no questions, just try to think about what you have 
been sharing with us. But I do want to go in a little 
direction, because I am sitting here listening. I missed most 
of your presentations. I did look through some of your written 
report.
    But your answer to Mrs. Davis and some of my colleagues--
are we, as a Nation, getting to the point that if we do not, as 
some of you have said, start taking care of things within this 
Nation, such as health care, infrastructure--are we getting to 
a point that we are not going to be able to have the 
international influence?
    Because I think about the Chinese, which many of you have 
mentioned, they have to know that we owe China $448 billion. 
They--those leadership--military and non-military--they know 
that America is borrowing money from China to pay its bills. So 
are we losing what influence we could have with other nations 
because they know that we can't even take care of our own 
situation?
    And this does impact on our military. Our military is as 
stressed as it has ever been. The equipment--we had testimony 
from Secretary Wynne, who is not there any longer, saying that, 
``We are putting projects behind--putting them on the 
backburner because we don't have the money to fund everything 
at this particular time.''
    So I guess my question to you, do we need to take a period 
of time under the leadership of a new President, or maybe two 
new Presidents, over the next seven or eight years, and start 
trying to say to certain parts of the country--or the world--
excuse me, the world--that, ``We are there to help save you. We 
are there to help make you better,'' when we can't even fix our 
own problems?
    Do the nations that are more sophisticated, from a 
governmental standpoint, do they see us as one of those parts 
of history--that we are at a point that we--there might not be 
a return as a great Nation, if we don't get serious about what 
is happening within this country?
    General Scales. If I could just make a I think you hit on 
something very important, sir.
    We live in an era where global communications flies around 
the world a an unprecedented rate, and that someone with a 
transistor radio or small television in some, you know, native 
hut in Southwest Asia is almost as up as much on current events 
as those of us sitting in this room.
    So perception is important here. How people perceive us is 
important. It is not just $448 billion worth of debt. But it is 
the subjective opinion that people have of the American people 
that has enormous power. I mean true, it can be translated into 
power.
    So if you--eventually, the day comes when you want to say, 
for instance, ``Build a coalition, or bring in partners for a 
particular threatened region of the world.'' The easiest way to 
do that is to do the condition-setting, if you will, among 
folks in different parts of the world, such that when we show 
up, the perception of who we are is, perhaps, different than it 
is today.
    And I think--and that is something that you can't do 
overnight, and you can't do with a television ad. It is going 
to take a generation, in some ways, to change those 
perceptions. And I don't believe it is necessarily related to, 
you know, to debt. I think it is related to moral debt, not 
fiscal debt.
    And if we can't turn that around very quickly--and, oh, by 
the way, it is not just with the ruling elites of the world. It 
is with, you know, the common, the Arab street or the common 
man in Beijing. It is what he thinks about, he or she thinks 
about, the United States. It is so important.
    If we can't occupy the moral high ground, we can't own it 
in some way--the rest of the world is pushing on an open door. 
When we try to impose our will on other parts of the world, we 
are going to find ourselves in great trouble.
    Ambassador Hunter. I think people are less worried about 
whether we are getting our economic house in order, provided we 
have the capacity to do things, plus what the generals have 
said--the moral high ground for the United States.
    You know, we have thousands and thousands of ambassadors--
some of them are in the military--to go out and do things in 
individual villages and communities and the like, all over the 
place. In fact, the U.S. military, in terms of integrating 
instruments of power and influence, took the lead, and are now 
looking for other parts of the government to do things, because 
this isn't what the military should have to do, even though 
they are also good at it.
    We have thousands and thousands of people in non-
governmental organizations who are the face of America. The 
private sector--to a great extent, more people in the world 
will see somebody from the private sector, rather than somebody 
from the government--civilian military. And this is a fantastic 
asset.
    Meanwhile, one of the great strengths of this country--and 
people talk about, ``Are we in decline?'' Et cetera. I don't 
think that is true.
    The American ship of state has an amazing keel, and we can 
tip over an awful long way, but we tip back again. And right 
now, this Nation is tipping back again, in a new era, i 
believe, of strength and purpose, across the country, across 
the political parties. And I think, to use that old acting 
discussion, some of our best days are still ahead of us.
    Admiral Blair. No foreign group that I talked to--
leadership--think our influential--thinks that the United 
States is in some sort of inexorable decline, and is looking 
beyond us to do something else. I think we are more worried 
about our problems than foreigners are. And I think that is 
absolutely right, because we know them better. We are the ones 
who are going to have to fix them.
    Mr. Jones. Just real quick, but if you move into that realm 
of a perception of decline, I think of conditions after 1972-
1973, or actually, after the fall of Saigon, that creates 
periods of strategic vulnerability, and heightens the 
probability of miscalculation on the part of those--I mean, I 
am not saying al Qaeda is not trying to do mischief right now.
    But al Qaeda's ability to garner assets and to garner his 
own coalition together, to take us on, increases when we go 
through periods of our own sense of vulnerability. That led to 
the Mayagis incident.
    And I could go on and on. You see what I am so--it is 
perception--management is important, I think, as we move 
through this war, and into the future.
    Mr. Jones. Thank you, Mr. Chair.
    Dr. Snyder. I wanted to ask--General Scales, if you would, 
take a minute and amplify a little bet on your comment about 
orienting around embassies.
    General Scales. Yes, I--thank you, Mr. Chairman.
    I think, with apologies to Admiral Blair, I think----
    Admiral Blair. Give me a chance to rebut, and I will----
    General Scales. Oh, absolutely. I----
    Ambassador Hunter. I am the referee between the military?
    General Scales. I think there is a tendency always to view 
power or the distribution of power in the world as going 
through a military chain of command. So our instinct or--again, 
back to perceptions--oftentimes, from the other end, the 
perception is, ``Oh, boy. Here it comes.''
    There is a perception of a military solution to a regional 
problem. And to, I forget who, the member asked me about pre-
insurgencies.
    The way you keep the Nation safe in the early phases of 
budding trouble in the world, I believe, is through the country 
team--through the ambassador, through the defense attache, and 
through this sort of proto-alliance, if that is the right 
word--this early emerging alliance, where the ambassador and 
the defense attache is in charge.
    A pre-insurgency would be the ability in some threatened 
state that either has a poor military or has no military, to, 
through a very deliberate process--to begin training up to 
begin acculturating, and to begin very, very carefully, sort of 
passing on our own national and cultural values to an emerging 
state, such that when the insurgency does somehow begin to get 
more serious--then, the process of reacting to it is done at a 
more deliberate, cautious, collegial way, rather than having, 
you know, the airborne or the Marines suddenly show up on 
someone's doorstep, ready to do something that, perhaps, may 
not agree with the world's perception of what should be done.
    Dr. Snyder. Admiral Blair, do you have any comments on----
    Admiral Blair. No, I just--I mean, I recognize the 
underlying problem that General Scales is talking about. But 
just to throw a small organizational solution like ``Organize 
around an ambassador'' is just, it doesn't do justice to the 
complexity of the problem.
    Ambassadors have country responsibilities, not a regional 
point of view. Many of the sorts of human skills, and also 
resources and technical skills--require decisions that go 
across individual countries, into regional approaches. And we 
have to come up with a matrix--collaborative--approach that 
bring to bear both military and, as I said, non-military 
governmental and non-governmental tools to bear on the sorts of 
both problems and opportunities that we have in the world.
    And I just think it is a much more complicated problem than 
simply assigning troops in a country to an ambassador.
    Dr. Snyder. Ambassador Hunter.
    Ambassador Hunter. Well, in conflict situations like Iraq 
and Afghanistan, or even Bosnia and Kosovo before that, we have 
done best when there has been a strong country team in which 
everybody is pulling the same direction.
    It is less a matter of who is going to be in charge, even 
though, ultimately, an ambassador is--works directly for the 
President--than the fact that they know how to work together, 
and they have the will to do that.
    And we have done much better in Iraq and in Afghanistan. We 
have had that kind of team, as elsewhere.
    Let me tell you about four programs that are very cheap, 
that buy us an awful lot. The International Military Education 
and Training (IMET) program has been one of the most cost-
effective things this country has done, creating relationships 
with militaries, which are the gold standard, when we want to 
get involved. Fulbrights, leader grants--I would want to see 
the United States Information Agency, again, created as a 
separate organization. It really works.
    One of the things we are learning about transformation is 
it is very important to have people abroad, creating 
relationships; not trying to parachute them in just when there 
is a crisis. Maybe that is more expensive in the short term. It 
pays off in the long term.
    And one other things which applies, I think, directly to 
Iraq and Afghanistan, which the military gentlemen, here, can 
have a particular view on. We tend to bring folks in for 6 
months, 12 months, 15 months, and then they leave. The 
relationships they have built with the locals then disappear, 
and you have to start over again.
    Now, you have to rotate people. You have to, for a whole 
variety of reasons. But there are a lot of cadres and other 
ancillary folks and non-military--who really need to be there 
for long tours, to build on these relationships so they don't 
just disappear when the 101st, let's say, is replaced by the 
Marines in the northwest part of Iraq, and they have to start 
over again.
    We need to find a way so these relationships will be 
evergreen over time. And given the way Americans behave in 
country, these are fantastic resources.
    General Scales. Let me just--I need one--for the admiral.
    I didn't mean for the ambassador to be commanding troops. 
But what I meant was that the pre-insurgency phase of a 
relationship with a Nation under stress is something that needs 
to be managed by the company team. It is just better to do it 
earlier, rather than wait for the insurgency to suddenly 
inflame a country, and then suddenly have to react to it, 
rather than setting conditions before that happens.
    Dr. Snyder. Dr. Zelikow, you have been trying to get a word 
in.
    Dr. Zelikow. I should say, General Scales' suggestion is 
going--his heart is in the right place. But, actually, we are 
trying to regionalize the country team right now, not fragment 
it down to the country level.
    Take, for example, sub-Saharan Africa. We need to actually 
regionalize the State Department's projection of civilian power 
on a regional basis. You can't handle the problems of the Great 
Lakes Region of Africa purely on a country-team-by-country-team 
basis.
    Or if I was to switch over to counterterrorism in Southeast 
Asia--pre-insurgency--if I carve that up by Thailand, Southern 
Philippines, Indonesia--the way we have tried to do is create 
regional field teams in which we actually pool our resources--
Central Intelligence Agency (CIA), military, a lot of other 
resources--to work what is, in essence, a regional problem in 
Southeast Asia, for countering terrorism.
    If you took the example of Afghanistan, you can't handle 
the problem of Afghanistan without some way of extending 
outward to Pakistan. Same goes for Iraq, when you think about 
the surrounding region--Turkey, Iran, other things.
    My point is that I think the country-team model is the 
right model of civil-military-intel cooperation, and I praise 
that. But we actually need to try to regionalize that model 
where we need to, in order to tackle the issues.
    Dr. Snyder. Ambassador Hunter, I have to share with you--
years ago, I worked at a Catholic Mission Hospital in West 
Africa. And one day, one of the nuns said to me, she said, 
``The priests aren't really very helpful. They only last out 
here 35 or 40 years, and then''----
    Ambassador Hunter. Well, Mr. Chairman, I think you need to 
do something about that, and have them stay a whole career.
    Dr. Snyder. Mr. Akin.
    Mr. Akin. A different, little, less-philosophical question. 
I was actually amazed that there were, apparently, a fair 
number of Europeans, probably 20 percent of America, that 
believed that we went into Iraq to steal their oil. I mean, I 
think there are still probably a few people that believe that.
    But the fact that we have been there, now, at least, knock 
on wood, successfully, and if we close out and leave a self-
governing state behind, does that buy us a lot of capital in a 
world sense, at least to give us some immunization from--I 
mean, I gather, for a number of years, there, in Europe, 
everybody was convinced those ``bad Americans, you are just 
stealing those guys' oil.''
    What do you think about that?
    Dr. Zelikow. Well, I since I have worked on Iraq some, over 
the last few years, the Iraqis are doing very well off their 
oil.
    Mr. Akin. Sure.
    Dr. Zelikow. And we are not going to end up stealing their 
oil. The question is actually whether or not we help them gain 
the benefit of their own resources, as we did in the case of 
Saudi Arabia.
    No one says that America now owns Saudi Arabia's oil. But 
Texans, basically, helped the Saudis find the way to develop 
their own resources to its full potential. And the Saudis know 
this perfectly well.
    There is a little bit of a backlash that I am worried 
about, in which people are so paranoid about the accusation 
that we are stealing their oil, that we think it is actually in 
America's interest for the gas problem to have all those 
rights.
    Ambassador Hunter. We have a good test that you can point 
to.
    1991, we were in Kuwait. We could have seized the Saudi 
fields and the Kuwaiti fields and kept them forever. A lot of 
people thought we were going to do that. And we left. That 
brought us an awful lot of money in the bank of influence.
    I remember once, when we had a military exercise in Egypt, 
and the Air Force wanted to stay, because there was another one 
coming. And I made them leave. This is back under Carter. And 
then, when President Sadat came to see the President of the 
United States, he said, ``The fact that you left was more 
important than the fact that you came. You can come anytime.''
    People understand the United States will help out, create 
victory, give people opportunities, and then go home.
    General Scales. I think regardless of what the conditions 
are, Mr. Akin--there is no question that the radical insurgents 
are going to view us leaving as their victory. Imagine them--
that is just the way wars are and the way conflicts are.
    But the rest of the world--the Europeans and regional 
states, in particular--will breathe, as Ambassador Hunter said, 
``an enormous sigh of relief,'' that we are adhering to our 
pattern of behavior, as Bob said, ``a pattern of behavior that 
we have established, going all the way back to Greece in 1948-
1949.
    That is just the way we act. That is how the American 
military, as advisor groups, have acted in the past. El 
Salvador is another example. We left Panama.
    So we do have a track record, which is pretty good. We also 
left Saudi Arabia. We have a track record, which is pretty 
good, of when things get to the point where stability is 
reasonable, then we pull out.
    And I think, and as Bob said, exactly right, ``pulling out 
sometimes is just as important as going in.''
    Admiral Blair. Let's not break our arms, patting ourselves 
on the back here. The reason that we are--one of the 
fundamental reasons that we are involved as heavily as we are 
in the Middle East is that is where the oil is.
    That doesn't mean that we have U.S. troops around oil 
fields, and are shipping it directly into American cars. But a 
major reason--one of two--in which we are there, is that that 
is where the world's oil supply is. And we depend on that to 
the tune of 70 percent--60 percent--77 percent--60 percent or 
70 percent of the imports--to run our cars and vehicles around.
    So I think that it is an issue. As to whether that is a 
good thing or a bad thing, and what do we do about it. I 
personally think that is a bad thing. We have militarized our 
policy in that region. It is based on making sure that there is 
access to oil at a fair price. And that has all sorts of toxic 
side effects, which we are dealing with, in terms of the anti-
American insurgency that is running there.
    So I think that our approach to that region, number one, 
needs to be to cut down the oil-intensity of our economy by a 
great deal. We can't become oil-independent, but we can 
certainly spend a heck of a lot--import a heck of a lot--less 
oil for every dollar of GDP that we generate, as we did in the 
1970's, after the first oil crisis.
    I think we can be a lot more deft in combining non-
military, as well as military things that we do in that region, 
so that we get the benefits of being able to have a favorable 
relationship there, and don't get all the toxic side-effects of 
setting up targets who can be portrayed as crusaders and be 
accused of stealing the oil, and get the Arab street working 
against us.
    So I think that there is work to be done on that score, and 
not to simply congratulate ourselves that we leave after 
exercises in Egypt.
    Mr. Akin. I--yes, I----
    Admiral Blair. Yes.
    Mr. Akin. Just--if I could finish that thought. It does 
seem to me that there is a difference. One of the things we 
said about, ``Why do we go to war?'' Well, one, that there is a 
national interest. Two, that the cause is a worthy cause and a 
chance to win. That is a pretty good three to start with.
    Certainly, we had a national interest in keeping the Middle 
East from melting down, and also from all sorts of nukes going 
off there; but, that said, we are not there to steal their oil. 
We are there to stabilize the region. And they can reap the 
benefits of their own oil.
    It seems like--I understand what you are saying, and, 
certainly, I agree, and been voting for eight years to get us 
off of our dependence on Middle Eastern oil. But, thus said, we 
still did not steal their oil, and never had the intent of 
stealing their oil, and will not steal their oil. And it seems 
to me that that is a fairly big point in that, apparently, a 
whole lot of the world thought that is what we were going to 
do.
    General Scales. Mr. Akin, if I could get tactical on you 
for a moment. When I was in Iraq in November, one of the things 
that impressed me most is the quality of strategic perception 
management that has gone into the U.S. command in doing exactly 
what you suggest.
    One thing that struck me was I went into a very large 
headquarters, to the information-operations cell. And two-
thirds of the people in that cell, not only were they Iraqis, 
but they were Iraqis from the Iraqi media. That is a huge seat 
change from two or three years ago.
    Now, some of the things that they report locally in their 
own media are not terribly complimentary to us. But the grand 
scheme of it--the perception, generally, of the population--has 
shifted enormously because of what Dave Petraeus and others 
have done over there to try to open up. ``Open up'' is not the 
right word--to try to give the Iraqis an opportunity to dig 
into our own motives to the degree that they can, without 
sacrificing security.
    And so the lesson to take into the Grand Strategy of the 
future, I think, is to put that in a bottle in some way; define 
instruments that will allow us to be open to the global media 
in a way that we have never done before, again, without 
violating some of the tenants of national security.
    Dr. Snyder. Mr. Conaway, for five minutes.
    Mr. Conaway. Well, I won't use the five minutes, other than 
to--Dr. Zelikow, are you on record somewhere in 1999 and 2000, 
of wanting to intervene militarily in Afghanistan?
    You mentioned that you perceived them as an imminent threat 
well in advance of the direct attack. Is that something you 
developed now, in hindsight, or were you ahead of the curve or 
record in that timeframe, of actually wanting military 
intervention?
    Dr. Zelikow. Well, what I did do is I joined a group that 
published an article at the end of 1998, in Foreign Affairs, 
called ``Catastrophic Terrorism,'' in which I argued that that 
should now come into the foreground as the most dangerous 
threat to the United States. It used the World Trade scenario 
just to show how America would be divided into a ``Before'' and 
``After'' if we suffered such attack.
    But I did not publicly call for the United States to use 
military action in Afghanistan in that article. I was trying to 
put that threat front-and-center, because I thought that was an 
end very severe.
    I actually think the evident failure of our reactions to 
the 1998 attacks, as evidenced after the Cole attack in October 
2000, I think made it clear at that point that it was just a 
matter of time before they were just going to keep hitting 
until they got a really big strike, because--and nothing we 
were doing was interfering with their operational 
effectiveness. But I didn't really have a chance to really 
exhume the archives of how our government had thought about 
that problem, until I directed the 9-11 Commission.
    I would say that the observation I made about the fact that 
there was an imminent threat before 9-11, and that we needed to 
be ahead-of-the-curve in responding to it--and it is a 
bipartisan remark that I think would be shared by all the 
commissioners who looked at that material, in both parties on 
the commission.
    Mr. Conaway. I guess the problem is, knowing today--what is 
today's imminent threat? And that is what everybody struggles 
with. And as historians, it is a lot easier looking backwards 
than forwards. And, you know, the decision-makers today, and 
the guys who have to make those hard decisions are, obviously, 
keenly interested in doing it right. But it isn't any easier 
today than it was in August of 2001 to figure out who is going 
to throw the next punch.
    Dr. Zelikow. Well, the paradox that the commission 
described in its report, is that once you have been hit 
catastrophically, you have no trouble rallying a popular 
consensus to deal with it. But, of course, at that point, 
thousands of Americans are dead and hundreds of billions of 
dollars have been lost.
    If you want to get ahead of that curve, you are going to do 
things in which you are going to have to go on judgments, and 
you are not going to have the same kind of unity behind you. 
That is the paradox, is once the threat is manifest to all, it 
is manifest to all.
    And so, then, the issue is--so, for example, do you bother 
about Hitler when he marches into the Rhineland in 1936? Do you 
bother about Czechoslovakia in 1938, when, ``Gee, Czech's 
Sudetenland''--is that really worth--do you bother about 
Manchuria in 1931 and 1932, when the Japanese start moving 
south of the Great Wall, and out of sight of Manchuria?
    The point is, if you want to head these things off before 
they become catastrophic, then you have to make tough calls 
that will seem disproportionate to a lot of people.
    Now, in the case of 9-11, you are actually talking about an 
enemy that had already attacked us twice in a long-range 
international operation. So this was not a threat that was 
purely speculative. And it seemed to me the case was pretty 
strong, certainly after the Cole attack, if not before.
    Ambassador Hunter. Congressman, let me add something, 
because this gets directly to the problem of trying to 
anticipate catastrophic events, or, to use a kind of term the 
military often uses, ``the black swan,'' that is something that 
is just not supposed to happen.
    As I indicated earlier, one of the things we really face 
today is asymmetrical warfare; people who say, ``We cannot 
attack the Americans in a major way in the homeland, or even 
troops abroad. But what we can do is try to increase the number 
of casualties there are, so that it can weaken the American 
will, or we can try to use a relatively inexpensive weapon 
against an expensive weapon,'' to use an improvised explosive 
device (IED) against an armored personnel carrier, that sort of 
thing, so that the economics work on that.
    The problem we face is that the leverage effect of a 
relatively minor terrorist attack in this country can be 
immense on the American people. It is one reason we spent so 
much time and effort on homeland security, on airport security 
and the like. It is also why we have tried to, as a Nation, to 
create a hierarchy of concerns.
    As the President said, ``It is the marriage of terrorism 
with high technology, is what we most have to worry about.'' So 
the number-one requirement is to keep nuclear weapons out of 
the hands of terrorists, weaponizable biologicals, then 
radiological, and then chemical; or something that they can do 
which will either have a huge chunk effect in this country, or 
that could disrupt some kind of important economic node.
    To eliminate all terrorism is going to be impossible. We 
could clamp down totally in this country. We could prevent 
anybody from coming here. We could end civil liberties and all 
of that, and still somebody is going to be able to do something 
to us.
    So we have to create this hierarchy of protective measures 
and active measures to try to get at as much potential 
terrorism as possible, to keep the weapons that they could most 
use against us out of their hands, and to help the American 
people and others understand we are going to get much of it, 
but we cannot promise a risk-free environment.
    And I think people understand that and are prepared to go 
with the things we most have to do to protect our Nation.
    Mr. Conaway. That might fall under a Grand Strategy.
    Dr. Snyder. Dr. Gingrey, for five minutes.
    Dr. Gingrey. The commentary in regard to pre-emptive 
strategy, rather than a containment strategy is something I 
would like for you to touch on, because, particularly, in 
regard to Iran and their desire to have a, they say, nuclear 
power, but we say nuclear weapon. And, of course, if we allow 
them to do that, then containing--we add another country--a 
somewhat unfriendly country, with a nuclear weapon, I think, is 
a bad thing. So pre-emptive strategy, I think, probably, is a 
good thing in certain instances.
    I do want to ask about the idea of our energy policy, and 
what we are pushing for in regard to--I think Admiral Blair 
mentioned a little bit about, you know, not patting ourselves 
on the back too much in regard to the Middle East, and what we 
have done, and why we did it.
    But do you see--any of you see--our energy policy, as we go 
forward in the future, as being part of, if not a--maybe a 
backdrop--but a significant part of a Grand Strategy as we go 
forward in the future?
    Dr. Zelikow. I said so explicitly in my testimony, 
Congressman.
    I described--I agree, by the way, with what Admiral Blair 
said about this a few moments ago. I would add, by the way, 
that the importation of oil is--accounts for half of our net 
current account deficit--and is the single most-important 
reason for the continuing indebtedness of the United States, 
even while we have a low dollar, and our export conditions are 
fundamentally good.
    We are not getting the benefit of that because of the scale 
of our oil imports. It is the single biggest drain on the 
American economy right now. So I think that a five-part agenda 
for, ``What global forces do you have to manage to be able to 
offer some hope that we can manage these forces cooperatively 
in the world?'' One of those five agenda items is energy and 
the environment, and reducing the dependence on oil and dirty 
coal.
    Ambassador Hunter. I think we have to be candid about this.
    Even if we could get our own dependence down, the 
industrialized world is going to depend on Middle East energy. 
That includes countries that we relate to very dearly, 
including the Europeans. It can't be done in sort of 100 years 
or something like that.
    So we have no choice but to try, with others, to ensure 
that energy resources in the Middle East will continue to flow. 
And, now, some--there are a lot of ways of looking at that--
lots of threats, et cetera, one has to work on.
    At the same time, we will be in a much better position if 
we do, as a fundamental commitment--this is not telling anybody 
anything new--to try to reduce American dependence on the 
outside world. Part of that is finding other sources of 
hydrocarbons. And a lot of it is finding alternative energy. 
And a lot of it is conservation.
    Now, you are in the bad position that it is very difficult 
for you to go to your constituents and say, ``We have to do 
this kind of thing, and you have to sacrifice today,'' when 
people say, ``I can understand a $4 gallon of gasoline. Get 
that down. I am not going to worry anymore.''
    One of the fundamental things we have to do as a Nation--
and you folks are, not to cause trouble--is to collapse the 
political horizon of what people will support to meet the 
strategic requirement. So I would say energy has to be one of 
the three or four critical items of any Grand Strategy.
    Admiral Blair. I think, Congressman Gingrey, that the way 
oil deposits were put in the world, and the effect they have 
now, it had to have been done by somebody with a sense of 
humor. I mean, they are in the worst places, with the most 
unstable governments--violent social forces at work. And, yet, 
that is where they are.
    And what really worries me in the future is that a Western 
Africa and a Central Asia, which are the areas of most 
hydrocarbon deposits, behind the Middle East, in which we are 
in the same sort of situation that we are now in the Middle 
East--lots of troops deployed, unstable governments, having to 
cut deals with governments that we don't really much like, 
being targets when we are out there, paying a lot of money to 
people who can jam it up our nose in other ways.
    And so I think that we need to work very much on the demand 
side in this country. We have to actively do things that will 
ensure that we get the energy that we do need from places that 
put us in a less-difficult position from using our Armed Forces 
and other tools of power, everything from importing Brazilian, 
sugar-based ethanol, which could be a partial solution, where 
we are going to--it is just fine if we send money to Brazil, as 
opposed to other places that we get on with a proper clean-
based, clean-coal project so that we can electrify the 
transportation sector and not completely depend upon oil.
    It is a multi-part process that we have got to pursue with 
an underlying national-security rationale of not sending our 
troops over as the last resort, in places that we haven't 
solved by, number one, curbing our activities at home and, 
number two, being more clever about the way we use our power 
overseas.
    Dr. Snyder. I have one final question I wanted to ask, and 
then we will let Mr. Akin and Dr. Gingrey, any final comments 
they want to make.
    Dr. Zelikow, I wanted you to amplify, if you would, on your 
comment about--how did you phrase it?--``I urge the committee 
to dig more deeply into the core problem, which is a lack of 
clarity about the problem itself, a lack of clarity about the 
character of this moment in world history.''
    Would you just amplify on that for me, please?
    Dr. Zelikow. Yes.
    Dr. Snyder. And then anybody else that wants to comment on, 
anybody who wants to critique what Dr. Zelikow says.
    Dr. Zelikow. The whole notion of a Grand Strategy is we are 
trying to talk about our purpose in the world in a way that we 
think will resonate with a lot of people in the rest of the 
world.
    So if we are going to have a sense of purpose, that has to 
be oriented to some observation and diagnosis of, ``What is the 
overarching condition that a lot of Americans and a lot of 
other people in the world care about?'' What--you have to have 
some observation about the character of the moment in world 
history.
    In the years immediately after World War II, for example, 
there was actually a big argument in the United States about 
what we should care about. For example, Eleanor Roosevelt and 
Sumner Welles and others said, ``We ought to be concerned with 
the remnants or fascism, Franco-Spain, remnants of fascism in 
Latin America.''
    A number of Republicans argued that, ``We ought to turn 
aside from Europe and really concentrate on the future of East 
Asia, but--that is where, really, the future of the world is 
going to be determined. And we ought to cut back our 
commitments in Europe and redouble our commitments in Asia, and 
actually intervene in the Chinese civil war.''
    So--then there was a third school which said that the 
dominant problem at this moment in world history is the 
encroachment of international communism as led by the Soviet 
Union, and the symbolic effect on that on people's hopes for 
whether we will live in a free world or not, and that the key 
theater for engaging that threat is in Europe and, therefore, 
the key focus of your Grand Strategy of containment in the 
first instance is going to have to be on European recovery.
    And so there was an argument that went on about that. It 
went on for a couple of years, and then it was definitively 
resolved in 1947. And then they took it to the American people. 
Oh, well, really, the axioms of containment versus, say, 
rollback, after the outbreak of the Korean War, was not settled 
until the Eisenhower Administration--and really settled that in 
as a firm Grand Strategy in 1953.
    Now, the moment in history that I think we are at right now 
is one in which, for the first time, we now have full 
globalization. It is reminiscent of what we had at the 
beginning of the 20th century. But, then, we didn't have the 
engagement of China and India in the world economy in the scale 
we have it now, and the velocity of movement of energy and 
money and ideas and people; although, there was enormous 
movements of people back then, in the tens of millions--and a 
lot of immigration issues, too.
    So if--that era of full globalization is so important--by 
the way, every--people in India get that. People in China get 
that. It is not a mystery. The reaction to that, though, is a 
huge push for self-determination. It is, ``I am going to react 
against the global forces that are trying to reshape my 
community, and that I think threaten me, whether it is the 
immigrants coming into my community or the goods you are trying 
to sell that undercut my goods.'' It manifests itself in 100 
different ways, a lot of them cultural.
    And so that is the tension you have to manage. And, then, 
to manage that tension, you have got to convince people that 
nations in the world can get together and constructively manage 
these colossal global forces on an unprecedented scale, because 
if they think that you can't manage them cooperatively, they 
will fort-up.
    I--fortification almost is a metaphor for lots of different 
ways in which people will fort-up. And so there is an agenda 
then of, ``How do we reassure people that we are getting a 
handle on these enormous global forces?'' And I talked about 
them in, especially, five items on an agenda.
    I mean, just to give you an example--the diffusion of 
ultra-hazardous technologies--not just nuclear energy, which I 
think is essential--but, say, new technologies for genetic 
manipulation or nanotechnologies, which, I think, we will hear 
more about in the coming years, and the dangers that they could 
pose.
    If people think that the world is not going to manage these 
forces, they are going to react to that in ways that, I think, 
will be toxic and extremely dangerous, and which brought 
civilian to the very precipice of destruction during the 20th 
century. We could find ourselves in a pattern like that again.
    So I start with the observation that the clarity about the 
problem is important, because if you agree that the core 
problem is the tension between globalization and self-
determination, the agenda that flows from that is an agenda 
which I call ``an agenda for an open, civilized world,'' in my 
essay with Ernie May.
    And then the policy agenda that goes with that is one in 
which you convince ordinary people that these unprecedented 
manmade forces are being managed through cooperation; because, 
if you don't convince them of that, they are going to try to 
manage them in other ways.
    Dr. Snyder. Thank you.
    General Scales. If I could, just real quick. The thing that 
struck me from what my colleague just said, going back 100 
years ago, if you were to read the press at the time, and look 
at the middle and upper-middle classes, there was a sense, 
through industrialization--this sense of well-being that the 
world was never in a better state than it was in 1908.
    And well, there were war-clouds, obviously, in South Africa 
and Manchuria, but those were worlds away. And Europeans and 
Americans felt really good about themselves in 1908. And no one 
would have thought that Mons and Lake Hato and a execution of--
assassination of Franz Ferdinand would ever happen.
    And so I guess, if I could leave with something, it is 
always a caution. And I am a perennial pessimist, because I am 
a solder. But there is always this idea that any type of global 
clockwork mechanism is always fragile. And all it takes is 
misperception. All it, amplified by a global media, small 
minorities--your point about the anarchists--small minorities 
who inflame and accelerate and expand global fear--that could 
lead to something that, over the long term, could be 
catastrophic.
    That is why I talk so much about pre-insurgency and about 
setting conditions for regional stability--is the best way to 
offset something catastrophic from happening.
    Dr. Snyder. Mr. Akin, any final comments?
    Mr. Akin. I could probably stay all day. I just wanted to 
compliment the witnesses.
    I think that there is a real synergism, in a way, because 
all of your perspectives, together, really create a 
tremendously helpful perspective for those of us that have had 
the treat to be able to be here today. So, thank you.
    Thank you for the many ways that you have served our 
country. And I really appreciate you.
    General Scales. Thank you, sir.
    Dr. Zelikow. Thank you.
    Dr. Snyder. Thank you all for being here. Let me give you 
all an invitation, as a formal question for the record. If you 
have anything you would like to add, clarify, augment--if you 
will get it to the staff in a timely way, we will make it part 
of this record.
    Thank you all very, very much for being here. Thank you for 
your service.
    We are adjourned.
    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]



=======================================================================



                            A P P E N D I X

                             July 31, 2008

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 31, 2008

=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 31, 2008

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
